APPENDIX A

ORDER OF THE UNITED STATES COURT OF APPEALS FOR THE SIXTH
CIRCUIT DENYING BROWN'S MOTION TO RECALL THE MANDATE

No. 18-5084
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
ARIAN LAMONT BROWN,
Defendant-Appellant.

)
)
)
)
)
)
)
)
)
)
)

Dec 19, 2019
DEBORAH S. HUNT, Clerk

ORDER

Arian Lamont Brown, a pro se federal prisoner, moves to recall the mandate in this case
issued on January 24, 2019, after this court granted counsel’s motion to withdraw pursuant to
Anders v. California, 386 U.S. 738 (1967), and affirmed Brown’s convictions and sentence.
United States v. Brown, No. 18-5084 (6th Cir. Oct. 16, 2018).
Pursuant to a plea agreement, Brown pleaded guilty to possession with intent to distribute
40 grams or more of a mixture containing a detectable amount of fentanyl, in violation of 21 U.S.C.
§§ 841(a)(1) and 851, and possession with the intent to distribute heroin, in violation of 21 U.S.C.
§§ 841(a)(1) and 851. The parties agreed that Brown had previously been convicted of a felony
drug offense and was subject to an enhanced punishment pursuant to 21 U.S.C. § 851.
A presentence report calculated Brown’s total offense level as 35 and his criminal history
category as VI. Brown was also determined to be a career offender, see USSG § 4B 1.1, on the
basis of his prior convictions in Kentucky for attempt to possess with the intent to distribute
cocaine and for conspiracy to commit first-degree robbery. His guidelines range of imprisonment
was calculated as 292 to 365 months for the fentanyl conviction and 292 to 360 months for the
heroin conviction. The district court imposed a term of imprisonment of 330 months, to be
followed by an eight-year term of supervised release.

No. 18-5084
-2On appeal, Brown’s counsel filed a motion and brief pursuant to Anders and Sixth Circuit
Rule 12(c)(4)(C), requesting permission to withdraw because of a lack of any good-faith issues to
appeal. Brown requested, and was granted, a thirty-day extension of time to respond to counsel’s
motion, but he did not file a response within that time. After a review of the record, the panel
found that no appealable issues could be raised in connection with Brown’s guilty plea or sentence,
granted counsel’s motion to withdraw, and affirmed the judgment of the district court.
Two days later, Brown filed a motion for leave to file an untimely reply to counsel’s Anders
brief. This court denied the motion as moot. Brown then filed a petition for rehearing, asking the
court to consider the issue raised in his untimely reply: whether his Kentucky conviction for
conspiracy to commit a first-degree robbery qualified as a predicate offense for the purposes of the
career-offender enhancement. He also moved for leave to file his late response and to have counsel
appointed. On January 17, 2019, the panel granted his motion for leave to file the late response
but, upon consideration of that response and his petition for rehearing, denied rehearing. The panel
denied Brown’s request for the appointment of counsel as moot. The mandate issued seven days
later on January 24,2019.
Brown filed this motion to recall the mandate on October 21,2019. He argues two grounds
upon which the mandate should be recalled: (1) his guilty plea was not entered knowingly and
voluntarily and (2) his sentence is substantively unreasonable based on the June 6, 2019, decision
of this court in United States v. Havis, 927 F.3d 382 (6th Cir. 2019) (en banc), which held that the
definition of “controlled substance offense” in the Sentencing Guidelines does not include attempt
crimes.
This court has the inherent authority to recall its mandate. Patterson v. Haskins, 470 F.3d
645, 661-62 (6th Cir. 2006). However, the power to recall a mandate “is one of last resort, to be
held in reserve against grave, unforeseen contingencies.” Calderon v. Thompson, 523 U.S. 538,
550 (1998). The party “‘seeking recall of a mandate must demonstrate good cause for that action
through a showing of exceptional circumstances,’ including, but not limited to. ‘fraud upon the

I

No. 18-5084
-3 -

court, clarification of an outstanding mandate, [or] correction of a clerical mistake.”’ Patterson,
470 F.3d at 662 (quoting BellSouth Corp. v. FCC, 96 F.3d 849, 851-52 (6th Cir. 1996)).
Such exceptional circumstances do not exist in this case. Brown has not alleged fraud Or
raised a clerical error. Rather, he challenges the validity of his guilty plea and the calculation of
his sentencing guidelines range of imprisonment. Cf Bottone v. United States, 350 F.3d 59 (2d
Cir. 2003) (dismissing motion to recall mandate after en banc decision altered governing law).
Brown’s motion to recall the mandate is DENIED.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

APPENDIX B

JUDGMENT OF THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF KENTUCKY

A0245B

»i,^^&9S987.-S®REW Doc#: 133 Filed: 01/22/18
’

Sheet I

United States District Court

2 2 2m

Eastern District of Kentucky - Central Division at LexingtonclERfioaE^^^
)
)
)
)
)
)
)
)
)

UNITED STATES OF AMERICA
v.
Arian Lamont Brown

JUDGMENT IN A CRIMINAL CASE
Case Number:

5: 16-97-S-DCR-l

USM Number:

13117-032

Andrew M. Stephens
Defendant's Attorney

THE DEFENDANT:
El pleaded guilty to count(s)

2s and 3s

□ pleaded nolo contendere to count(s)
which was accepted by the court.
□ was found guilty on count(s)
after a plea of not guilty.

_____

The defendant is adjudicated guilty of these offenses:
Title & Section
21:841(a)(l)
21:841(a)(l)

Nature of Offense
Possession with Intent to Distribute 40 Grams or More of a Mixture or Substance
Containing a Detectable Amount of Fentanyl
Possession with Intent to Distribute Heroin

The defendant is sentenced as provided in pages 2 through
the Sentencing Reform Act of 1984.

7

Offense Ended
08/25/2016
08/25/2016

Count
2s
3s

of this judgment. The sentence is imposed pursuant to

□ The defendant has been found not guilty on count(s)
13 Count(s) Is and Underlying Indictment

□ is

13 are dismissed on the motion of the United States.

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution,
the defendant must notify the court and United States attorney of material changes in economic circumstances.
January 12, 2018
rttkm of Judgment,..
Date of
Signature of Judge
Honorable Danny C. Reeves, UXDistrict Judge
Name and Title of Judge
January 22.2018
Date

AO 245B (Re£$/8j ^ilgmcnfhROSminal^a^ ‘R EW

Doc#: 133 Filed: 01/22/18 Page; 2 of 7 -_Page ID#: 544

Sheet 2 - Imprisonment
Judgment — Page

DEFENDANT:
CASE NUMBER:

2

of

Arian Lamont Brown
5: 16-97-S-DCR-l

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total
term of:

Count 2s: 330 Months; Count 3s: 330 Months; Counts to run concurrently with each other, for a total term of
THREE HUNDRED THIRTY (330) MONTHS. However, these terms shall run consecutively to the 36-month
term of imprisonment imposed In ED/KY Case No. 5: 09-80-DCR-l.

El

The court makes the following recommendations to the Bureau of Prisons:
It is recommended that the defendant participate in a program towards the completion of a GED.
It is recommended that the defendant participate in the 500-Hour RDAP Program.

El

The defendant is remanded to the custody of the United States Marshal.

□

The defendant shall surrender to the United States Marshal for this district:

□ a.m.

□

at

□

as notified by the United States Marshal.

□

□ p.m.

on

The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons.
□

before 2 p.m. on

____________________ '

□

as notified by the United States Marshal.

□

as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on
at

to

__

, with a certified copy of this judgment.
UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

7

ao 2«b <£w.5afeai??a9i;Pc5?-REW

Doe #: 133 Filed: 01/22/18 Page: 3 of 7 - Page ID#: 545

Sheet 3 - Supervised Release

Judgment—Page

DEFENDANT:
CASE NUMBER:

3

of

7

Arian Lamont Brown
5: 16-97-S-DCR-l

SUPERVISED RELEASE
Upon release from imprisonment, you will be on supervised release for a term of:
Count 2s: Eight (8) Years; Count 3s: Six (6) Years to run concurrently with Count 2s, for a total term of Eight (8)
YEARS. This term shall run concurrently to the Four (4) Year term of supervision re-imposed in ED/KY Case No. 5:
09-80-DCR-l.

MANDATORY CONDITIONS
1.
2.
3.

4.
5.
6.

7.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release from
imprisonment and at least two periodic drug tests thereafter, as determined by the court.
□ The above drug testing condition is suspended, based on the court’s determination that you
pose a low risk of future substance abuse. (Check, ifapplicable.)
□ You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence of
restitution. (Check, ifapplicable.)
El You must cooperate in the collection of DNA as directed by the probation officer. (Check, if applicable.)
□ You must comply with the requirements of the Sex Offender Registration and Notification Act (42 U.S.C. § 16901, et seq.) as
directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which you reside, work,
are a student, or were convicted of a qualifying offense. (Check, if applicable.)
□ You must participate in an approved program for domestic violence. (Check, ifapplicable.)

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the attached
page.

!

APPENDIX C

ORDER OF THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT AFFIRMING JUDGMENT AND SENTENCE

t

"Case: i8-5084

Document: 44-2

Filed: 10/16/2018

Page: 1

(2 of 7)

NOT RECOMMENDED FOR FULL-TEXT PUBLICATION
No. 18-5084
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED
Oct 16, 2018

DEBORAH S. HUNT, Clerk
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
ARIAN LAMONT BROWN,
Defendant-Appellant.

)
)
)
)

)
)
)
)

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF
KENTUCKY

)
)
)

ORDER

Before: NORRIS, SILER, and SUTTON, Circuit Judges.

Arian Lamont Brown, a federal prisoner, appeals the 330-month sentence imposed by the
district court following his pleas of guilty to possessiorrwith intent to distribute fentanyl and
heroin. This case has been referred to a panel of the court that, upon examination, unanimously
agrees that oral argument is not needed. See Fed. R. App. P. 34(aL
Pursuant to a plea agreement, Brown pleaded guilty to possession with intent to distribute
40 grams or more of a mixture containing a detectable amount of fentanyl (Count 2), and
possession with the intent to distribute heroin (Count 3), both in violation of 21 ll.S.C.
841/aVlJ and 85 L^ He also agreed to forfeit currency that had been seized by the police
during a search of his residence. The parties agreed that Brown was subject to an enhanced
punishment pursuant to/21U.S.C^S 85 L^ Brown’s plea agreement also contained
a waiver of
appeal of his “guilty plea and conviction.”

.y

Case: 18-5084

Document: 44-2

Filed: 10/16/2018

Page: 2

No. 18-5084
-2A presentence report calculated Brown’s total offense level as 35 and his criminal history
category as VI. The report also determined Brown to be a career offender, based on his prior
Kentucky convictions for a felony drug offense and conspiracy to commit first-degree robbery.
His guidelines range of imprisonment was calculated as 292 to 365 months for Count 2, the
fentanyl conviction, and 292 to 360 months for Count 3, the heroin conviction.
Brown filed several objections to the presentence report, but only the challenge to his
career-offender designation impacted the guidelines calculation. In particular, Brown argued
that his conspiracy conviction was not a predicate offense. The district court overruled Brown’s
objection and imposed a term of imprisonment of 330 months,1 to be followed by an eight-year
term of supervised release.
Appointed appellate counsel has filed a motion to withdraw and a brief pursuant to
Anders v. California, 386 tJ.S. 738. 744 (1967), and Sixth Circuit Rule 12(c)(4)(C), notifying the
court that his review of the record and concomitant legal research revealed no good-faith issues
to appeal. Counsel asserts that Brown’s pleas were knowing and voluntary and that his waiver of
appeal is valid. Counsel concludes that the waiver is therefore enforceable and precludes any
appeal of Brown’s conviction. Counsel further concludes that the district court did not err by
determining that Brown’s Kentucky conviction for conspiracy to commit first-degree robbery
constituted a predicate offense for career-offender purposes.
Brown’s 330-month sentence is reasonable.

Finally, counsel asserts that

Brown has not responded to counsel’s motion

despite being advised of his right to do so. After independently examining the record pursuant to
Penson v. Ohio, 488 If S 75. 82-83 (1988), and counsel’s brief, we agree that no arguable
grounds for appeal exist.
First, no non-frivolous issue can be raised in connection with the validity of Brown’s
guilty pleas. A plea of guilty is constitutionally valid only to the extent it is “voluntary” and
“intelligent.” See Brady v. United States. 397 U.S. 742. 748 (1970). Determining whether a plea
1 Brown committed the instant offense while on supervised release from a 2010 conviction for
attempt to possess with intent to distribute cocaine. See United States v. Brown, No. 5:09-80CR-1 (E.D. Ky. Mar. 1, 2010). As a result, the district court also imposed a consecutive 36month term of imprisonment for the violation of the terms of his release.

(3 of 7)

Case: 18-5084

Document: 44-2

Filed: 10/16/2018

Page: 3

(4 of 7)

No. 18-5084
-3 -

was made voluntarily requires an evaluation of all the relevant circumstances surrounding the
plea. Id. at 749. When a defendant enters a valid guilty plea, he waives his right to appeal any
constitutional violations that occurred prior to the plea and may challenge only the voluntary
nature of the plea. See United States v. Kirksey, 118 F.3d 1113. 1115 (6th Cir. 1997) (citing
Tollett v. Henderson, 411 IJ.S. 258. 267 (1973)).
At Brown’s plea hearing, he was sworn in and advised that he could be subject to perjury
charges for making false statements. The district court then inquired as to Brown’s age, his
education, his employment history, his mental health, and whether he was under the influence of
any drugs or alcohol. The parties agreed that there was no reason to believe that Brown did not
understand the nature of the charges against him or the plea proceedings. Brown also confirmed
that he had received a copy of the indictment and had an opportunity to review it and discuss it
with counsel. He stated that he was satisfied with counsel’s advice and representation.
Brown confirmed that he reviewed his plea agreement, understood its conditions,
discussed it with counsel, and signed it. Brown stated that he had not been promised anything
that was not contained in the plea agreement. He further affirmed that he was not threatened or
forced to sign the documents or to enter guilty pleas.
The district court informed Brown of the statutory penalties associated with the charges,
^nchidinp the enhanced sentence he was subject tc^under §~851^ The district court also explained
how the Sentencing Guidelines worked and informed Brown of the factors that would be
considered when sentence was imposed. The court stated that any recommendations made by
the parties in the plea agreement were non-binding and that the court had to make an independent
decision about whether certain guideline provisions were appropriate.
The district court also specifically discussed with Brown the waiver of appeal contained
in the plea agreement. The court explained that the plea agreement waived Brown’s right to
but that (he~retained the right to appeal his sentence?)^appeal his guilty plea and conviction
Further, the court explained that Brown waived the right to collaterally attack his conviction or
sentence, except to raise claims regarding the ineffective assistance of counsel. Brown affirmed
that he had no questions about the waiver.

Case: 18-5084

Document: 44-2

Filed: 10/16/2018

(5 Of 7)

Page: 4

No. 18-5084
-4The district court next explained the rights that Brown was giving up by entering guilty
pleas instead of proceeding to a jury trial, including his right to a trial, to have a jury determine
his guilt beyond a reasonable doubt, to have the assistance of counsel at trial, to call witnesses
and cross-examine witnesses, and to decide whether to testify on his own behalf.
The district court reviewed the elements of the charges that Brown had agreed to plead
guilty to, as well as a claim of forfeiture to which Brown had also agreed.

Brown then

explained, in his own words, that, on August 25, 2016, in Fayette County, Kentucky, he
purchased fentanyl and heroin to sell to others. Brown agreed that, if the case went to trial, the
government could prove the elements of the charges beyond a reasonable doubt. He stated that
he wanted to plead guilty to Count 2 and Count 3 and that he agreed to forfeit any interest in the
property listed in the forfeiture allegation. The district court concluded that a sufficient factual
basis existed for the court to accept Brown’s pleas, that Brown was competent and capable of
entering a knowing and informed plea, and that his plea was voluntary. Because the district
court’s colloquy demonstrated that Brown was aware of all of the consequences of his pleas, the
-rnar.i

validity of those pleas cannot, in good faith, be challenged.
The record also reveals that Brown’s appeal waiver was valid and precludes a challenge
to his conviction. “It is well settled that a defendant in a criminal case may waive any right, even
a constitutional right, by means of a plea agreement.” United States v. McGilvery, 4Q3 L3d-26L
162 (6th Cir. 2005) (quoting United States v. Calderon, 388 F.3d 197. 199 (6th Cir. 2004)). The
waiver must be knowing and voluntary. United States v. Fleming, 239 F.3d 761. 763-64 (6th
Cir. 2001). We review de novo whether a defendant knowingly and voluntarily waived his right
to appeal his sentence. United States v. Murdock, 398 F.3d 491. 496 (6th Cir. 2005). Because
the record of Brown’s plea hearing demonstrates that he voluntarily and knowingly waived his
right to appeal, his waiver is valid and precludes this court from reviewing his conviction. See
United States v. Bradley, 400 F.3d 459. 465 (6th Cir. 2005).
We examine(^7entence impose^by the district court for both procedural and substantive
reasonableness under an abuse of discretion standard. Gall v. United States, 532 U.S. 3S..46,11
__________________ _____________________________________

—

-

■

-------------- ■>•»'

------------

...

—

(2007). To determine whether a sentence is procedurally reasonable, we must “first ensure that

Case: 18-5084

Document: 44-2

Filed: 10/16/2018

Page: 5

(6 of 7)

No. 18-5084
-5the district court committed no significant/procedural error} such as failing to calculate (or
improperly calculatinglfthe [gluidelinesraifl^treating the [guidelines as mandatory^failingto
consider the [18 U.S.C.] § 3553(a) factors/'selecting a sentence based on clearly erroneous fact§, __
or failing to adequately explain the chosen sentence.” Id. at 51.
Brown objected to his classification as a career offender, challenging his Kentucky
conviction for conspiracy to commit first-degree robbery. “A ‘crime of violence’ under the
career-offender provision is interpreted identically to a ‘violent felony’ under [the] A[rmed]
C[areer] Criminal] A[ct].” United States v. Young, 580 F.3d 373. 379 n.5 (6th Cir. 2009). We
have held that first-degree robbery in Kentucky is a violent felony under the ACCA. See United
States v. Elliott, 757 F.3d 492. 495 (2014). In addition, the career-offender provision of the
Guidelines states that a ‘“[c]rime of violence’. . . include[s] the offenses of aiding and abetting,
conspiring, and attempting to commit such offenses.”

USSG § 4B1.2(a). comment, (n.l)

(emphasis added). Accordingly, no arguable issue could be raised on appeal that Brown was
erroneously designated as a career offender.

Moreover, at sentencing, the district court

C^recognized)the advisory nature of thegiddehnesl^considered the § 3553(a) sentencing factors,
and adequately explained the sentence imposed. As a result, Brown cannot raise an arguable
issue on appeal that his 330-month sentence is procedurally unreasonable.
“A sentence is substantively unreasonable if the district court selects the sentence
---------------------- -----

__

-------------_

-

i

.....

i

.

.i

■■■-

-----------------

■-*

■

('''a^rariiy^bases the sentence on impermissible factors, fails to consider pertinent § 3553(a)
factors or gives an unreasonable amount of weight to any pertinent factor.” United States v.
Tristan-Madrigal, 601 F.3d 629. 633 (6th Cir. 2010) (citing United States v. Walls, 5.4.6-L3jd
728. 736 (6th Cir. 2008)).\ We presume thaTa"within-guideUneTsentencelTreasonable. United j

i

States v. Vonner, 516 F.3d 382. 389Jfflh_Cir.

2008) (en banc^i~~

Prior to imposing sentence, the district court noted that its starting point was the
guidelines range, which was properly calculated. The court recognized that the career-offender
enhancement increased Brown’s range significantly, “as it should based upon the activities in
which [Brown] ha[d] engaged himself over the years.” The district court explained that Brown’s
offense was serious in that it involved drugs that created “lots of damage and destruction in the

1

i

^ i'

Case: 18-5084

•:

Document: 44-2

Filed: 10/16/2018

Page: 6

(7 of 7)

No. 18-5084
-6community.” The court also believed there was a need to protect the public, given that Brown’s
criminal history showed an inclination for violence. The district court considered sentencing
disparities and acknowledged that federal courts varied below the guideline range for career
offenders in some cases, but that it was not required and it was “certainly” not called for in this
case.

v
The district court concluded that, upon consideration of all of the factors of § 3553, a

guidelines sentence was appropriate. However, there were factors that caused the court to
believe that a sentence at the upper end of the range was. not necessary, namely Brown’s work
ethic and his family’s support. As a result, the district court imposed a sentence of 330 months.
The record does not reflect that the district court considered inappropriate sentencing factors,
gave an unreasonable amount of weight to any single factor, or selected the sentence arbitrarily,
accordingly, Brown can raise no arguable issue on appeal that the within-guidelines sentence was
substantively unreasonable. See United States v. Brown, 501 F.3d 722» 724 (6th Cii. 2007).
The record contains evidence that Brown believed that his attorneys provided inadequate
representation. To the extent that he would wish to raise any claims of the ineffective assistance
of counsel, however, those claims are more appropriately raised on collateral review because the
record before us is often insufficient to assess the merits of such claims. See United States v.
Warman, S78 F

320. 348 (6th Cir. 2009); see also Massaro v. United States, 538 U.S. ,5.0.0.

S04-05 (2003).
Counsel’s motion to withdraw is GRANTED. The judgment of the district court is
AFFIRMED.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

V-

* c , •

No. 18-5084
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
ARIAN LAMONT BROWN,
Defendant-Appellant.

)
)
)
)
)
)
)
)
)
)
)

Mar 02, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: NORRIS, SILER, and SUTTON, Circuit Judges.

Arian Lamont Brown, a pro se federal prisoner, has filed a petition for rehearing of the
December 19, 2019, order denying his motion to recall the mandate.
Upon careful consideration, this panel concludes that it did not misapprehend or overlook
any point of law or fact when it issued its order. Fed. R. App. P. 40(a).
We therefore DENY Brown’s petition for rehearing.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

